Case: l:19-cv-02324 Document#: 26 Filed: 09/10/20 Page 1 of 1 PagelD #:1805
Case: 19-3429
Document: 00713678487
Filed: 09/10/2020
Pages: 1

llmkii Jilate Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
Submitted August 13, 2020
Decided August 19, 2020
Before

CERTIFIED COPY
cri w
ATpiCan'-

T7

7'

F

• ■
*-v

DIANE S. SYKES, Chief Judge AMY C. BARRETT, Circuit Judge

of thfiYaii fed/Si^Jes t * •">
CourtSeventh

No. 19-3429
ANTHONY THOMAS,
Petitioner-Appellant,

v.
VICTOR CALLOWAY,
Respondent-Appellee.

Appeal from the United States District
Court for the Northern District of Illinois,
Eastern Division.
No. l:19-CV-02324
Thomas M. Durkin,

Judge.
ORDER

Anthony Thomas has filed a notice of appeal from the denial of his petition
under 28 U.S.C. § 2254 and an application for a certificate of appealability. We have
reviewed the final order of the district court and the record on appeal and find no
substantial showing of the denial, of a constitutional right. See 28 U.S.C. § 2253(c)(2).
Accordingly, we DENY the request for a certificate of appealability and DENY
Thomas's motion to appoint counsel.

^

V. /A

Case: l:19-cv-02324 Document#: 14 Filed: 11/12/19 Page 1 of 8 PagelD #:1747

United States District Court
for the Northern District of Illinois
Eastern Division
Anthony Thomas,
Petitioner,
v.

No. 19 C 2324
Judge Thomas M. Durkin

Victor Calloway, Warden of the
Danville Correctional Center
Respondent.
Memorandum Opinion and Order
An Illinois state court jury found Anthony Thomas guilty of aggravated sexual
assault. He is serving a 15-year sentence at the Danville Correctional Center in
Illinois, in the custody of Warden Victor Calloway. Thomas is serving this sentence
consecutive to another 15-year sentence he received after pleading guilty to a
separate charge of aggravated sexual assault of a second victim. Thomas, pro se,
seeks a writ of habeas corpus pursuant to 28 U.S.C. § 2254.1 The Warden answered
the petition seeking its dismissal. R. 7. Thomas’s petition is denied and the Court
declines to issue a certificate of appealability.

1 Rather than file a response to the Warden’s answer, Thomas filed a motion for
attorney representation due to what he describes as the “complicated response” from
the Warden. See R. 13. There is no right to counsel in civil cases, including habeas
corpus petitions. And the Court generally does not appoint counsel for habeas
petitioners absent extenuating circumstances, such as when a hearing is required.
The Warden makes arguments regarding procedural exhaustion and fair
presentment which are well-settled doctrines. Appointment of counsel for Thomas
would not change the outcome of his petition. So his motion for attorney
representation is denied.

6y\/( >C iB

Case: l:l9-cv-02324 Document#: 14 Filed: 11/12/19 Page 2 of 8 PagelD #:1747

Background
On direct appeal Thomas argued: (1) the admission of facts about his other
sexual assault conviction violated 725 ILCS 5/115-7.3; (2) he was impermissibly
punished for going to trial because he was offered a lower sentence prior to trial than
he received after trial; and (3) his trial counsel was ineffective. See R. 8-1 at 28-29,
34, 40. The appellate court rejected claims (1) and (2) but remanded on the ineffective
assistance of counsel claim. See R. 8-4 at 1 (If 1). Thomas filed a petition for leave to
appeal with the Illinois Supreme Court on claims (1) and (2), which was rejected. See
R. 8-5 at 2; R. 8-6 at 1-3.
The trial court held a hearing on the remanded ineffective assistance of trial
counsel claim and denied the claim. See R. 8-10 at 1

1). Thomas appealed, and the

appellate court affirmed. Id. Thomas did not file a petition for leave to appeal with
the Illinois Supreme Court on the ineffective assistance of counsel ruling.
Thomas also filed a post-conviction petition claiming: (1) the State suborned
perjury by ignoring inconsistencies in the victim’s statements prior to and at trial; (2)
ineffective trial counsel for failure to preserve a perjury claim; and (3) ineffective
appellate counsel for failure to raise the issue on appeal. See R. 8-11 at 7-8. The trial
court dismissed the claims as frivolous and the appellate court affirmed. See R. 8-13
at 2-3 (f^f 4, 7). Thomas filed a petition for leave to appeal to the Illinois Supreme
Court on ineffective assistance of appellate counsel, which was rejected. See R. 8-14
at 1-2. Thomas’s petition for leave to appeal did not include any claim of ineffective
assistance of trial counsel. See R. 8-14 a 2-11.

2

Case: l:19-cv-02324 Document #: 14 Filed: 11/12/19 Page 3 of 8 PagelD #:1747

Generously construed, Thomas’s habeas petition includes the following claims:
Ground 1:

admission of other-crimes evidence for propensity purposes
violated due process, R. 1 at 5;

Ground 2:

consecutive sentences violated state law, id. at 6-7;

Ground 3:

the prosecutor made inflammatory statements to the jury, id. at
10;

Ground 4:

ineffective assistance of trial counsel for failing to (a) challenge
the admission of O.L.’s testimony, id. at 16, (b) argue that
petitioner’s statement to police was obtained in violation of
Miranda, id. at 17, (c) challenge the imposition of consecutive
sentences, id. at 7, and (d) exclude biased jurors, id.at 21;

Ground 5:

the trial court erred in failing to instruct the jury on lesserincluded offenses, id. at 18, 20;

Ground 6:

the evidence was insufficient because two witnesses (Dr. Khatoon
and nurse Reyes) testified that their examinations of the victim
revealed no tearing or swelling, id. at 18;

Ground 7:

the jury was biased because some jurors stated they could not be
impartial and some had family members who were Chicago police
officers, id. at 20-21;

Ground 8:

the prosecutor knowingly used false and inconsistent testimony
from the victim, id. at 25; and

3

-I?

Case: l:19-cv-02324 Document #: 14 Filed: 11/12/19 Page 4 of 8 PagelD #:1747

Ground 9:

the trial judge was biased as evidenced by the fact that she
granted all of the State’s motions and denied all of petitioner’s
motions, id. at 20.
Analysis

Of the nine claims Thomas raises in his petition, he exhausted only grounds
one and two through complete rounds of state court review. See Crutchfield v.
Dennison, 910 F.3d 968, 972 (7th Cir. 2018) (“A federal court will not hear a state
prisoner’s habeas claim unless the prisoner has first exhausted his state remedies by
presenting the claim to the state courts for one full round of review.”). Grounds three
and five through nine were never raised in the state court, and are denied for that
reason. Thomas raised ground four—ineffective assistance of trial counsel—on both
direct appeal and post-conviction proceedings, but he never raised it in a petition for
leave to appeal to the Illinois Supreme Court. Thus, ground four is also denied for
failure to exhaust.
Grounds one and two—arguing respectively that (1) “other crimes” evidence
was impermissibly admitted, and that (2) Thomas should not have been given a
sentence longer than the sentence offered before trial—were exhausted through
complete rounds of state review. However, to the extent Thomas argues that the trial
court violated state law in making these rulings, the claims are not cognizable on
habeas review. See Estelle v. McGuire, 502 U.S. 62, 67-68 (1991) (“Today, we
reemphasize that it is not the province of a federal habeas court to reexamine statecourt determinations on state-law questions. In conducting habeas review, a federal

4

Case: l:19-cv-02324 Document #: 14 Filed: 11/12/19 Page 5 of 8 PagelD #:1747

court is limited to deciding whether a conviction violated the Constitution, laws, or
treaties of the United States.”); Perruquet v. Briley, 390 F.3d 505, 511 (7th Cir. 2004)
(“[E]rrors of state law in and of themselves are not cognizable on habeas review. The
remedial power of a federal habeas court is limited to violations of the petitioner’s
federal rights, so only if a state court’s errors have deprived the petitioner of a right
under federal law can the federal court intervene.”).
However, if the “petitioner] draws enough of a connection between his rights
to due process and the trial court’s (alleged) [state law] errors,” this can “render [the
petitioner’s] claim cognizable on habeas review.” Perruquet, 390 F.3d at 512. To
determine whether an issue is cognizable on habeas review, the Court “must consider
whether the state court was sufficiently alerted to the federal constitutional nature
of the issue to permit it to resolve that issue on a federal basis.” Whatley v. Zatecky,
833 F.3d 762, 771 (7th Cir. 2016). The Seventh Circuit has “set forth four factors to
consider in determining whether a petitioner has avoided default: (1) whether the
petitioner relied on federal cases that engage in a constitutional analysis; (2) whether
the petitioner relied on state cases which apply a constitutional analysis to similar
facts; (3) whether the petitioner framed the claim in terms so particular as to call to
mind a specific constitutional right; or (4) whether the petitioner alleged a pattern of
facts that is well within the mainstream of constitutional litigation.” Id. at 771. “All
four factors need not be present to avoid default, and conversely, a single factor alone
does not automatically avoid default.” Id. Rather, the Court “must consider the
specific circumstances of each case.” Id.

5

Case: l::19-cv-02324 Document#: 14 Filed: 11/12/19 Page 6 of 8 PagelD #:1747

Thomas has not met this standard. Both grounds one and two are expressly
based on violations of state law. Thomas never argued in state court that these
violations of state law rise to the level of federal due process violations. Thomas does
not argue otherwise now. And even if he had made such an argument, it would be
baseless. Thomas did not in any way cite or implicate a specific constitutional right
in his state court briefing. Nor did he cite federal or state cases applying a
constitutional analysis in his state court briefing. Indeed, his state court papers did
not even touch on broader principles of constitutional due process. His claim about
unfair sentencing does not implicate the fairness of his trial. While his claim about
improper admission of other crimes evidence might imphcate the fairness of his trial.
any such argument in Thomas’s state briefing was made only in passing, and even
then only in relation to his state law claim. See Chambers v. McCaughtry, 264 F.3d
732, 738 (7th Cir. 2001) (a “mere ‘passing reference’ to a constitutional issue certainly
does not suffice”). He never argued that the violations of state law constituted
violations of his federal constitutional rights, as is required to fairly present the issue.
See Verdin v. O’Leary, 972 F.2d 1467, 1475 (7th Cir. 1992) (cautioning against the
“special danger” of claims made in state court that “may well present the echo of a
federal claim while still not alerting the state court to the federal nature of the
claim”); see also id. (“A federal constitutional claim may be ‘inherent’ in the facts, but
not recognizable as such without further elaboration.”).
Even if Thomas had alerted the state court to the constitutional nature of these
claims, they fail on the merits. For the claims to be meritorious, Thomas would have

6

Case: l:19-cv-02324 Document #: 14 Filed: 11/12/19 Page 7 of 8 PagelD #:1747

to show that the trial court’s decisions were either (i) “contrary to,” (ii) “an
unreasonable application of,” (iii) an “unreasonable extension of,” or (iv) an
unreasonable refusal to extend, clearly established federal law as determined by the
United States Supreme Court. See 28 U.S.C. § 2254(d)(1); Williams v. Taylor, 529
U.S. 362, 404-05 (2000); Kubsch v. Neal, 838 F.3d 845, 859 (7th Cir. 2016).
The Court is not aware of any constitutional right that a sentence imposed
after trial be no longer than the sentence offered in exchange for a guilty plea. Neither
does admission of “other crimes” evidence implicate the constitution. See Lieberman
v. Washington, 128 F.3d 1085, 1095 (7th Cir. 1997) (recognizing defendant’s history
of prior assaults on other women as modus operandi evidence); Butler v. Richards,
947 F.2d 948 (7th Cir. 1991) (“The questioning concerning other crimes did not create
a fundamentally unfair trial separately or when considered cumulatively with the
threat testimony.”). Therefore, grounds one and two are also insufficient bases to
grant the petition.
Lastly, the Court declines to issue a certificate of appealability pursuant to 28
U.S.C. § 2253(c)(2). Rule 11(a) of the Rules Governing § 2254 Cases provides that the
district court “must issue or deny a certificate of appealability when it enters a final
order adverse to the applicant.” See Gonzalez v. Thaler, 132 S.Ct. 641, 649 n.5 (2012).
To obtain a certificate of appealability, a habeas petitioner must make “a substantial
showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2). This
demonstration “includes showing that reasonable jurists could debate whether (or,
for that matter, agree that) the petition should have been resolved in a different

7

Case: l:19-cv-02324 Document #: 14 Filed: 11/12/19 Page 8 of 8 PagelD #:1747

manner or that the issues presented were adequate to deserve encouragement to
proceed further.” Slack v. McDaniel, 529 U.S. 473, 483-84 (2000); see also Lavin v.
Rednour, 641 F.3d 830, 832 (7th Cir. 2011). For the reasons discussed, Thomas has
not made such a showing. Accordingly, certification of Thomas’s claim for appellate
review is denied.
Conclusion
Therefore, Thomas’s petition is denied and the Court declines to issue a
certificate of appealability.
ENTERED:

Honorable Thomas M. Durkin
United States District Judge
Dated: November 12, 2019

8

hf p4rJ>(K ^

Additional material
from this filing is
available in the
Clerk's Office.

